OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID/EGYPT’S
TRANSITION SUPPORT
GRANTS PROGRAM

AUDIT REPORT NO. 6-263-13-002-P
OCTOBER 22, 2012




CAIRO, EGYPT
Office of Inspector General


October 22, 2012

MEMORANDUM

TO:                   USAID/Egypt Mission Director, Walter North

FROM:                 Regional Inspector General/Cairo, Catherine Trujillo /s/

SUBJECT:              Audit of USAID/Egypt’s Transition Support Grants Program
                      (Report No. 6-263-13-002-P)

This memorandum transmits our final report on the subject audit. We have considered carefully
your comments on the draft report and have included them in their entirety in Appendix II.

The final report includes six recommendations to improve the management and oversight of
USAID/Egypt’s Transition Support Grants Program. On the basis of actions that the mission
took, we determined that final action has been taken on Recommendations 1 and 2.

A management decision was reached on Recommendations 3, 4, 5, and 6. Please provide the
Audit Performance and Compliance Division in the USAID Office of the Chief Financial Officer
with the necessary documentation to achieve final action.


Thank you for the cooperation and courtesy extended to the audit team during this audit.




U.S. Agency for International Development
USAID Office Building
1/A Nady El-Etisalat St., off El-Laselki St.
New Maadi
Cairo, Egypt
www.usaid.gov/oig
CONTENTS
Summary of Results ..................................................................................................... 1

Audit Findings ............................................................................................................... 4

     USAID/Egypt Met Minimum Requirements in Awarding Grants ................................. 4

     USAID/Egypt Did Not Modify Agreements Promptly .................................................. 4

     Funds Obligated to Support Democracy and Governance Goals Were
     Not Used as Intended................................................................................................ 6

     USAID/Egypt’s Oversight of a Grantee Was Weak .................................................... 7

Evaluation of Management Comments...................................................................... 10

Appendix I—Scope and Methodology ....................................................................... 11

Appendix II—Management Comments ...................................................................... 13

Appendix III— Comparison of USAID’s Assistance Instruments ............................ 18

Appendix IV—Program Status as of November 2011 ............................................... 21



Abbreviations

The following abbreviations appear in this report:

ADS            Automated Directives System
AOR            agreement officer’s representative
EGP            Egyptian pound
FAA            Foreign Appropriations Act
FOG            fixed obligation grant
FY             fiscal year
IRI            International Republican Institute
MFA            Ministry of Foreign Affairs
MoSS           Ministry of Social Solidarity
NDI            National Democratic Institute
NGO            nongovernmental organization
RIG            Regional Inspector General/Cairo
SUMMARY OF RESULTS
The fiscal year (FY) 2005 Consolidated Appropriations Act included an amendment that stated,
“With respect to the provision of assistance for Egypt for democracy and governance activities,
the organizations implementing such assistance and the specific nature of that assistance shall
not be subject to the prior approval by the Government of Egypt."1 The amendment gave
USAID the authority to provide funding to NGOs and other segments of civil society that were
not officially recognized by the Government of Egypt. USAID/Egypt initiated a direct grants
program in 2005 and experienced funding increases, specifically for the direct grants program.

Since the program began in 2005, the Egyptian Government has asked USAID to stop funding
Egyptian organizations that are not registered with Ministry of Social Solidarity (MoSS) as
required by Egypt’s law on nongovernmental organizations. The government has also asked
USAID to stop funding U.S. organizations that do not have a standing agreement with the
Ministry of Foreign Affairs (MFA) or are otherwise not legally able to operate in Egypt.

After the citizen-led massive protests against the government that led to the resignation of
President Hosni Mubarak, USAID/Egypt increased its support of democracy and governance
programs. Starting in March 2011, the mission implemented the Transition Support Grants
Program, designed to help develop democracy by increasing public participation in elections
and political processes, expanding access to justice and attention to human rights problems,
and promoting transparency and accountability. This resulted in the mission working with a
wider range of civil society and labor organizations, youths, political party representatives, and
others.

To fund this program, USAID/Egypt reprogrammed $65 million for democracy and governance
activities; $32 million came from no-year funds (which do not expire) and $33 million from the
FY 2010 Economic Support Fund.2 Between April and September 2011, the mission awarded
and obligated more than $45 million to 16 Egyptian and 8 U.S. grantees. USAID/Egypt
transferred the remaining $20 million to the U.S. Department of State’s Middle East Partnership
Initiative and Bureau of Democracy, Human Rights, and Labor.

As of November 30, 2011, USAID/Egypt had disbursed $9 million to grantees. For the
Transition Support Grants Program, the mission used cooperative agreements, grants, and
fixed obligation grants (FOGs),3 based on the type of work being performed by the respective
grantees and the level of USAID/Egypt involvement. (Appendix III compares the funding
instruments.)


1
   Although the provision originally was specific to Egypt, a version of this provision for worldwide
application has been included in the appropriations legislation every year since its introduction.
2
  Congress established this fund to promote the economic and political foreign policy interests of the
United States by (1) providing assistance to allies and countries making the transition to democracy,
(2) supporting the Middle East peace negotiations, and (3) financing economic stabilization programs,
frequently in a multidonor context. USAID, with overall foreign policy guidance from the State
Department, implements most programs paid for with this fund.
3
  Unlike USAID grants that reimburse incurred costs, fixed obligation grants provide payments when
specific tasks have been accomplished or milestones have been reached.

                                                                                                    1
The Regional Inspector General/Cairo (RIG/Cairo) conducted this audit to determine whether
(1) USAID/Egypt selected and awarded the grants in accordance with U.S. regulations and
(2) grants under the program were on track to achieve their goals to support democratic
development.

USAID/Egypt’s democracy and governance technical evaluation committees, which review
applications, and agreement officers appropriately selected and awarded grants in accordance
with criteria described in the grant solicitation announcement, Agency policies, and federal
regulations (page 4).

As of March 2012, 12 of the 24 NGOs—with activities worth $28.5 million—were not on track to
achieve their goals under the Transition Support Grants Program. Although the program began
in April 2011, 11 of the 24 NGOs had not received MoSS’s approval to receive foreign funding,
as required by Article 17 of the law on nongovernmental organizations. On December 29, 2011,
the government raided NGO offices and began investigating NGOs that were not registered in
accordance with Article 6 of the same law—further delaying progress. The audit team
determined that USAID/Egypt did not make timely decisions to modify grant agreements in
reaction to the delays (page 4).

The team also determined that the program’s intended results will be further affected by
USAID/Egypt’s decision to use appropriated grant funds to pay bail costs for several employees
working for two of the U.S. grantees, International Republican Institute (IRI) and National
Democratic Institute (NDI) (page 6). After the raids, the employees were charged with operating
without a license, receiving unauthorized foreign funds for activities, and engaging in political
activities; they were banned from leaving Egypt pending a trial scheduled for February 26, 2012.
On February 26, 2012, judges adjourned the trial until April 26, 2012, and the Court of Appeal
set bail at about $332,000 (2 million Egyptian pounds or EGP) per defendant. To cover the
legal costs for NGO employees at the request of the NGOs,4 USAID’s Acting Chief Financial
Officer authorized the use of Economic Support Funds intended for implementing the
transitional support grants. To make the payment, on February 29, 2012, USAID/Egypt
withdrew $4.6 million (EGP 28 million) in non-appropriated local currency funds held in a trust
fund account for USAID/Egypt’s administrative expenses with the understanding that the
relevant grants affected would reimburse the account. Trust funds are local currency provided
by the Government of Egypt to support the administrative and program costs of the economic
assistance program to Egypt. The Government of Egypt owns the funds and USAID/Egypt
controls and administers them. During March and April 2012, the mission deposited the $4.6
million back into the account of which $2.5 million came from obligated funds intended for the
Transition Support Grants Program.

Additionally, the audit team determined that the mission’s oversight of one of the grantees was
weak. The grantee had a $721,945 cooperative agreement and did not comply with its
accounting, audit, and records clause. The grantee did not provide any documentation to
substantiate expenditures or the overall progress of the activities. Nor did USAID/Egypt monitor
two advances it paid the grantee (page 7).

To address these findings, we recommend that USAID/Egypt:
4
 The 14 NGO workers were employed under grants awarded by USAID, the State Department, and
Germany.

                                                                                               2
1. Review and identify delayed projects in the Transition Support Grants Program and send
   a written list to USAID/Egypt’s Procurement Office for action (page 6).

2. Make a written determination to revise, suspend, or terminate transition grants (page 6).

3. Conduct and document an assessment of the IRI and NDI grants made under the
   Transition Support Grants Program to determine whether the current funding is sufficient
   to complete program activities and cover anticipated costs (page 7).

4. Determine the validity of the reported results for democracy and governance activities
   under the cooperative agreement and document its review (page 9).

5. Perform and document an independent financial review of the grantee’s expenditures,
   and use supporting documentation to liquidate advances (page 9).

6. Determine the allowability of $526,204 in unsupported questioned costs for expenses
   incurred by a grantee and recover any amounts determined to be unallowable (page 9).

Detailed findings follow. The audit scope and methodology are described in Appendix I.
USAID/Egypt’s management comments are included in their entirety in Appendix II, and our
evaluation of mission comments is included on page 10 of the report.




                                                                                               3
AUDIT FINDINGS
USAID/Egypt Met Minimum
Requirements in Awarding Grants
Mission officials identified four main criteria for evaluating the grant applications. Applicants
needed to (1) possess the requisite capability to implement the activities efficiently and
effectively, (2) propose a program that directly responded to the areas of interest, (3) propose
activities that would lead to anticipated results and expected impacts, and (4) propose a realistic
budget that was consistent with proposed activities and results, which were objective,
quantifiable, and measurable.

The mission was required to comply with applicable Agency policies and federal regulations
throughout the selection and award process. The Automated Directives System (ADS) contains
the rules employees must follow when reviewing and evaluating applications, conducting
preaward surveys, and reviewing preaward certifications, assurances, and other statements
from U.S. and non-U.S. organizations before making an award.

USAID/Egypt awarded 12 grants, 10 FOGs, and 2 cooperative agreements with a cumulative
value of more than $45 million to support its Transition Support Grants Program. (Appendix III
explains the different funding instruments.) The mission gave $37.7 million to 8 U.S. grantees
and $7.4 million to 16 Egyptian grantees to conduct democracy and governance activities.

After reviewing committee memos and interviewing mission officials, the audit team determined
that USAID/Egypt’s democracy and governance technical evaluation committees and
agreement officers had selected and awarded the grants in accordance with the criteria
described in the grant solicitation announcement and with Agency policies and federal
regulations. The documents showed that the agreement officers obtained the appropriate
preaward certifications for all but one grantee, whose certification the mission collected during
the audit.

USAID/Egypt’s standardized procedures contributed to its adherence to the solicitation criteria
and USAID policies and regulations. Committee members applied consistent proposal review
procedures. The technical evaluation document included the collective evaluation input from
each member, which the democracy and governance office reviewed, and the agreement
officers documented the results of their preaward determinations within the negotiation memos.

We conclude that grants awarded under USAID/Egypt’s Transition Support Grants Program met
the minimum requirements set forth by federal guidance and Agency policy.

USAID/Egypt Did Not Modify
Agreements Promptly
According to Egypt’s Minister of Planning and International Cooperation, the government has
been protesting a "unilateral" U.S. measure to direct part of its economic aid to human rights
and prodemocracy groups since 2004 in violation of Egyptian law. The Egyptian Government

                                                                                                 4
contended that some NGOs did not comply with Article 6 on NGO registration requirements or
Article 17 on approval requirements for accepting funds from foreign sources for activities.

When the U.S. Government decided in early 2011 that USAID would work directly with a wide
range of civil society and labor organizations, youths, political party representatives, and others,
the Agency knew that NGOs could encounter problems if they did not comply strictly with
Egypt’s law on nongovernmental organizations.

Tensions were heightened after December 29, 2011, when Egyptian security forces raided the
offices of foreign and Egyptian NGOs, including some that were working under the Transition
Support Grants Program. Appendix IV outlines the status of all grantees before and after the
raids.

Some examples of the repercussions that the delays have had on the program are listed below.

   A grantee 7 months into its 24-month, $207,000 award held $23,000 in advances that it
   could not use because it had suspended its operations.

   A grantee 9 months into its 12-month, $352,000 award had not started any of its planned
   activities.

   A grantee 8 months into its 24-month, $328,000 award had not started its project.

   Two grantees 11 months into their 24-month, $10 million awards suspended their
   operations.

   A grantee 10 months into its 24-month, $2 million award had not started its planned
   activities.

In accordance with ADS 202.3.6, “Monitoring Quality and Timeliness of Key Outputs,” USAID is
required to monitor the quality and timeliness of its grantees’ outputs. Delays in completing
outputs or problems with output quality provide an early warning that results may not be
achieved as planned. Therefore, reacting early to problems is essential when managing for
results. When problems arise indicating that results may not be achieved, ADS 202.3.6.3,
“Making Necessary Adjustments,” requires missions to adjust tactics; adjustments could include
a variety of scenarios, such as developing an entirely new project or activity and simply
modifying and changing existing ones. Regardless of the tactic, USAID needs to mitigate the
risks of committing funds to grantees that do not seem able to complete outputs on time.

Aside from the delays that NGOs faced from the onset of their grants, the December 2011 raids
served as warning to USAID that the 24 grantees might not achieve their Transition Support
Grants Program goals. However, USAID/Egypt’s procurement office did not make program
adjustments. As of April 2012, mission officials had not modified, suspended, or terminated
grants with time-sensitive components, significant delays, or other problems.

Mission officials said they initially believed that it was premature to determine whether the
delays would adversely affect the grantees’ ability to achieve the goals. However the mission’s
decision not to make programmatic adjustments for grantees that had implementation problems
from the beginning did not conform to USAID policy.

As a result, half of the 24 grants—worth $28.5 million—were encountering problems that
affected their ability to implement the activities and ultimately deliver the expected outputs on
                                                                                                5
time. Although the problems that caused the delays were beyond USAID/Egypt’s control, we
make the following recommendations.

   Recommendation 1.        We recommend that the USAID/Egypt’s Democracy and
   Governance Office review and identify delayed projects in the Transition Support Grants
   Program and send a written list to USAID/Egypt’s Procurement Office for action.

   Recommendation 2. We recommend that USAID/Egypt’s Procurement Office, in
   coordination with USAID/Egypt’s Democracy and Governance Office, make a written
   determination to revise, suspend, or terminate transition grants.

Funds Obligated to Support
Democracy and Governance Goals
Were Not Used as Intended
Under the Transition Support Grants Program, the mission awarded and obligated more than
$45 million to 16 Egyptian and 8 U.S. grantees between April and September 2011 to
implement democracy and governance activities. Through the provision of technical assistance,
the activities were intended to build the capacity of political parties, civil society organizations,
and other groups so they could take part in Egypt’s political reform process.

The program, however, will not benefit from the full amount intended to achieve the goals
because two grantees had to use some of their grant funds for legal costs. NDI and IRI used
about $2.5 million from their $10 million grants to cover bail and legal fees for several of their
employees. The mission’s grant to IRI was designed to allow it to support organizations in
implementing targeted voter education campaigns throughout Egypt and build capacity of these
groups to serve as watchdogs that would hold Egypt’s emerging government accountable and
the NDI grant was designed to allow it to strengthen democratic institutions and processes.

After the December 29, 2011, raids, several NGO employees were charged with operating
without a license, receiving unauthorized foreign funds for activities, and engaging in political
activities. They were not allowed to leave Egypt pending a trial scheduled for February 26,
2012. On February 26, 2012, judges adjourned the trial until April 26, 2012, and the appellate
court set bail at about $332,000 (EGP 2 million) per defendant. On February 29, 2012, the bail
was paid and the travel restriction lifted.

To pay the bail costs, USAID/Egypt submitted a request to USAID’s Acting Chief Financial
Officer and Assistant Administrator for the Middle East Bureau to use its authority under the
Foreign Appropriations Act (FAA), Section 636(b) to pay for legal costs and bail for the NGOs
facing criminal proceedings in Egypt. In the mission’s request, it stated that Section 636(b) of
the FAA provides USAID with special authority to make extraordinary payments for expenses
incurred in carrying out its foreign assistance activities when certain conditions are met.

USAID’s General Counsel interpreted the section 636(b) to mean that the Agency could
exercise this authority when the following three requirements were met: (1) the expenditure
arises or occurs outside the United States, (2) the expenditure is necessary to accomplish the
purposes of the act, and (3) the expenditure does not cover compensation to U.S. Government
personnel. USAID’s General Counsel also stated that although not required by statute, it
recommended that equity and fairness also be considered when evaluating whether Section
                                                                                                   6
636(b) authority is appropriate where it can be established that the U.S. Government has a
moral obligation to provide relief or a special hardship would result.

USAID’s General Counsel determined that these three requirements were met.                   The
circumstances causing need for legal costs arose in Egypt with the majority of the payments,
including those for Egyptian counsel and bail costs were expended in Egypt. The expenditure
was necessary to accomplish the purposes of the FAA and considered integrally linked to the
purposes of the FAA. The expenditure did not compensate U.S. Government personnel; it
covered legal and court fees, bail, and other associated expenses related to legal proceedings
in Egypt. Lastly, USAID’s General Counsel determined that moral or equitable considerations in
this situation, justified the expenditure on behalf of USAID's partners who put themselves at risk
while implementing programs, particularly in unstable political environments.

Responding to USAID/Egypt’s request, the Acting Chief Financial Officer authorized the use of
Economic Support Fund money intended for implementing the NDI and IRI grants to pay the
associated legal costs. As a result, NDI spent $1,643,400 in obligated funds and IRI spent
$830,000 that it intended to use to achieve the goals under USAID’s Transition Support Grants
Program.

Therefore in order for USAID/Egypt to adjust its plans and to reassess the expected outcomes
of its Transition Support Grants Program, we make the following recommendation.

   Recommendation 3. We recommend that USAID/Egypt’s Office of Democracy and
   Governance conduct and document an assessment of the International Republican
   Institute and National Democratic Institute grants made under the Transition Support
   Grants Program to determine whether the current funding is sufficient to complete
   program activities and cover anticipated costs.

USAID/Egypt’s Oversight of a
Grantee Was Weak
Organizations receiving federal funds under a grant are required to comply with the grant’s
accounting, audit, and records clause, which requires the recipient to maintain financial records,
supporting documents, and all other records pertinent to the award in accordance with generally
accepted accounting principles. At a minimum, the grantee should maintain documentation
regarding the procurement and use of goods and services, the costs of the program, and overall
progress.

USAID is responsible for monitoring any advances it pays to grantees. ADS 636.3.3.2,
“Excessive Advances/Periodic Review of Requirements,” states that mission controllers must be
sure that grantees’ requests for advances are reasonable and not excessive for immediate
disbursement needs. They should also review outstanding advances at least quarterly to verify
that advances do not exceed immediate needs. For advances worth more than $10,000, the
grantee must return any funds over and above immediate disbursement needs to USAID unless
the excess funds will be disbursed within 7 days.

ADS 303.2.f, “Primary Responsibilities,” requires the agreement officer’s representative (AOR)
to be sure that USAID exercises prudent management over its awarded assistance by
monitoring the recipient and its performance during the award. The Government Accountability
                                                                                                7
Office’s Standards for Internal Control in the Federal Government states that all transactions
and other significant events need to be documented clearly and that the documentation should
be readily available for examination.

The audit team determined that Human Development Association, a grantee with a $721,945
cooperative agreement to provide services that would contribute to fairer, democratic, genuine
and competitive elections, did not comply with the grant’s accounting, audit, and records clause.
It did not maintain any documentation to substantiate expenditures or the overall progress of the
activities. Therefore the audit team could not determine whether this grantee was on track to
achieve its goals under the Transition Support Grants Program.

During an interview, the managing director of Human Development Association said it paid 3
consultants to provide workshops to 30 trainers. In addition, the grantee paid 4,000 people to
(1) conduct door-to-door campaigning, (2) monitor the voter registration process and media
coverage, and (3) monitor the external and internal environment at polling stations. He said the
grantee paid all charges related to the program activities, including payments of $25 (EGP 150)
to each of the 4,000 people who monitored polling stations. The grantee also paid $0.83 (EGP
5) to each person for the door-to-door campaign for a total of $103,333 (EGP 620,000).

However, he could not provide evidence to support these payments. Later in the same
interview, he said his organization had not paid the individuals $25 each for monitoring
activities, but planned to pay them each $17 (EGP 100) when it received an advance from
USAID/Egypt.

When asked about the 3 consultants, the managing director could not provide any contact
information for them, nor did he have copies of their contracts. He said he could not remember
where the workshops took place, and he did not have attendance lists, sign-in sheets, or
training agendas.

USAID/Egypt’s financial management office gave Human Development                       Association
two advances—$347,239 in October 2011 and $178,965 in November 2011.

During the audit, the managing director did not provide adequate records to support how grant
funds were used. The grantee manually recorded expenditures in a ledger but did not maintain
the records sufficiently. As a result, there were material deficiencies in the accounting internal
control procedures.

USAID/Egypt considered Human Development Association a high risk during the preaward risk
assessment but intended to mitigate its risks with a hired contractor to review expenses and
supporting documents before the mission liquidated the advances. However, these mitigating
factors did not include appropriate initial actions, like providing adequate technical assistance to
build the grantee’s capacity before disbursing the first advance.

During the audit, the mission’s agreement officer took corrective action on January 10, 2012,
and notified the grantee that subsequent advances would be suspended until the grantee
liquidated the first two.

To decrease the likelihood of financial loss, USAID can provide timely oversight of operations to
verify that funds are accounted for. With a high-risk grantee, managers can increase the
                                                                                                  8
likelihood of a program’s success by providing sufficient technical assistance up front in
documenting critical events, maintaining documentation of transactions, and liquidating funds
properly.

To determine the allowability of this grantee’s costs, we make the following recommendations.

    Recommendation 4. We recommend that USAID/Egypt’s Democracy and Governance
    Office determine the validity of the reported results for democracy and governance
    activities under the cooperative agreement and document its review.
    Recommendation 5. We recommend that USAID/Egypt’s Financial Management Office
    perform and document an independent financial review of the grantee’s expenditures,
    and use supporting documentation to liquidate advances.

    Recommendation 6.         We recommend that USAID/Egypt’s Procurement Office
    determine the allowability of $526,204 in unsupported questioned costs5 for expenses
    incurred by the grantee and recover any amounts determined to be unallowable.




5
 These include costs incurred and liquidated by USAID/Egypt and costs incurred but pending liquidation
by the mission.

                                                                                                    9
EVALUATION OF MANAGEMENT
COMMENTS
In its response to the draft audit report, USAID/Egypt agreed with the six recommendations.
Summarized below are the comments and the audit team’s evaluation of them.

Recommendation 1. The mission agreed to review and identify delayed projects and send a
written list to the procurement office for action.

Recommendation 2. The mission agreed to make a written determination to revise, suspend,
or terminate transition grants.

In response to Recommendations 1 and 2, the mission stated that on May 14, 2012, it formally
reviewed and documented the Transition Support Program grants to determine the adequacy of
funding for completion of program activities and anticipated costs, performance, etc. The
mission provided the documented analysis and decisions that it intends to take with each of the
24 grantees. The mission’s action adequately addresses both recommendations. Accordingly,
Recommendations 1 and 2 will be closed on issuance of this report.

Recommendation 3. The mission agreed to conduct and document an assessment of the IRI
and NDI grants to determine whether the current funding is sufficient to complete program
activities and cover anticipated costs. It plans to review their program activities, costs, and
funding in light of obligated funds available and the ongoing constraints that IRI and NDI are
operating under. The target date for completion is November 30, 2012. Based on the mission’s
described actions, a management decision has been reached.

Recommendation 4. The mission agreed to determine the validity of the reported results for
the Human Development Association cooperative agreement and document its review by
November 30, 2012. Based on the mission’s described actions, a management decision has
been reached.

Recommendation 5. The mission made repeated requests of the Human Development
Association to provide supporting documentation to liquidate outstanding advances. Because
the grantee did not provide sufficient support, the mission issued a bill of collection for the full
amount of the outstanding advances as of May 17, 2012. Mission officials said they would take
final action by November 30, 2012, upon the grantee submitting a reimbursement voucher with
adequate supporting documentation or return of the advancement. Based on the mission’s
described actions, a management decision has been reached.

Recommendation 6. The mission concurred and on May 17, 2012, it issued a bill for collection
for $526,204 for the unliquidated advances. The mission’s target date for final action is
November 30, 2012, when it will either liquidate the advance pending receipt of adequate
support or settle the bill of collection. Based on the mission’s described actions, a management
decision has been reached.



                                                                                                 10
                                                                                       Appendix I




SCOPE AND METHODOLOGY
Scope
RIG/Cairo conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
in accordance with our audit objective. We believe the evidence obtained provides that
reasonable basis.

The audit objective was to determine whether USAID/Egypt selected and awarded the Egyptian
transition support grants in accordance with regulations and whether projects under the program
were on track to achieve their goals to support democratic development.

Between April and September 2011, the mission awarded and obligated more than $45 million
to 24 democracy and governance grantees—16 Egyptian and 8 U.S. grantees. Grants to U.S.-
based grantees were worth $38 million (or 84 percent of the total funding), and the Egyptian
ones were worth $7 million (or 16 percent). As of November 30, 2011, USAID/Egypt had fully
obligated $45 million for democracy and governance program activities and disbursed $9 million
to grantees.

We conducted audit fieldwork at USAID/Egypt and grantee offices from November 30, 2011, to
April 5, 2012, and covered activities implemented by all 24 grantees for the period April 1 to
November 30, 2011, with updates through May 6, 2012. Interviews were conducted at the
offices of the Arab Office of Law, Arab Penal Reform Organization, Arab Program for Human
Rights Activists, Coptic Evangelical Organization for Social Services, Coptic Orphans Support
Association, Creative Associates International, Forum for Development and Human Rights
Dialogue, Hand in Hand for Egypt Organization, Horizon Interactive Studios, Human
Development Association, International Foundation for Electoral Systems, International
Republican Institute, Internews Network, Little Angel Association, National Democratic Institute,
New Horizon Association for Social Development, One World Foundation, People Marketing
Campaign, Relief International Consortium, Research Triangle Institute International’s
subpartner’s office Environmental Quality International, SAED Association for Development &
Human Rights, and United Group. Telephone interviews were conducted with the Assiut
Business Association and the South Egypt Development Association in Qena.

In planning and performing the audit, we assessed specific management controls including
verifying reported program and financial data to source documents, reporting of program results,
conducting management reviews at the functional and activity levels, and selection and
awarding of agreements. The audit team also reviewed significant management controls that
include USAID/Egypt’s monitoring of project activities. We conducted the review using
questionnaires and interviews with members of the mission and implementers’ staff, and
reviewing reports and files that the mission provided as part of its project monitoring activities.
We obtained an understanding of and evaluated the following: cooperative agreements, grants,
and FOGs with grant recipients; modifications to awards; annual work plans; milestones
documented in FOGs; the mission’s FY 2011 Federal Managers’ Financial Integrity Act
assessment; and the oversight performed by the AOR.
                                                                                                11
                                                                                    Appendix I


During audit testing, one grantee was not able to provide any documents to support program
results or financial expenditures. Therefore, the audit determined that the results for this
grantee were not reliable.

Methodology
To answer the audit objective, we identified the program’s main goals and significant program
risks. We met with key personnel from USAID/Egypt and interviewed all 24 grantees under the
program. We contacted the previous mission director, deputy mission director, and Democracy
and Governance Office director; and current USAID Middle East Bureau officials, who made the
major decisions for the Transition Support Grants Program. We also reviewed documentation
provided by USAID/Egypt and the implementers, including grants, cooperative agreements, and
annual work plans. To assess whether projects were on track to achieve the program’s goals
and objectives, we selected and reviewed milestones and achievements as of November 30,
2011, for projects that had started. The audit team considered a program on track if the grant
recipient finished activities by planned completion dates. For FOG milestones, the audit team
considered a program on track if the grant recipient completed milestones within established
time frames. The audit team also considered subsequent activities from November 2011 to
March 2012 to determine any changes in the grantees’ results.

We validated stated and reported results with numerous techniques including (1) reviewing a
judgmental sample of awarded and nonawarded preaward technical evaluation committee
documents, (2) reviewing negotiation memorandums, award justifications and memorandums,
and preaward certificates for grants that were awarded, (3) tracing results to supporting
documentation (e.g., attendance sheets, training manuals, deliverables, subcontracts, invoices,
receipts, photographs), and (4) interviewing mission personnel and grant recipient staff
members. In addition, we also reviewed how much the AOR monitored the grantees’ and
USAID/Egypt officials’ site visit reports.

Furthermore, we reviewed applicable laws and regulations and USAID policies and procedures
regarding USAID/Egypt’s Transition Support Grants Program. Our review included the Foreign
Assistance Act of 1961, as amended; Public Laws 108-447 and 111-117; grants, cooperative
agreements, and modifications; U.S. Government Accountability Office’s Standards for Internal
Control in the Federal Government; and ADS Chapters 202, 303, 596, 602, 627, and 636.




                                                                                            12
                                                                                                 Appendix II



         MANAGEMENT COMMENTS


         Memorandum

         To:                Catherine Trujillo, Regional Inspector General/Cairo

         From:              Walter North, Mission Director, USAID/Egypt /s/

         Subject:           Management Response to the Audit Report Recommendations 1 through 6 - Audit
                            of USAID/Egypt’s Transition Support Grants Program
                            (Report No. 6-263-12-007-P) Final Draft.

         Date:              October 21, 2012

         Thank you for your report.

         In early 2011, a historic revolution swept Egypt. On February 11, President Obama signaled that
         the United States would provide assistance to help Egyptians “pursue a credible transition to a
         democracy.” Consistent with U.S. foreign policy direction, USAID quickly mobilized to work
         with emerging champions of democracy to help advance that transition. The Transition Supports
         Grants Program was the centerpiece of the response.

         The program respected the aspirations of the Egyptian people by eschewing a traditional blue
         print approach to program development. Rather, it recognized the important role that civil
         society would need to play in a new Egypt. It encouraged organizations to come forward with
         their own ideas. The response was overwhelming. Thousands of Egyptians wanted to learn
         about the program and more than 200 applications were received, ultimately leading to 24
         awards. The Agency quickly mobilized financial and human resources to stand up the award
         process. Recognizing that working with new partners would entail financial and accountability
         risks, significant mitigating measures were taken. Day to day monitoring of the grants has been
         intensive and constant.

         In the early days following the revolution, it was expected that the spirit of the revolution would
         inform the transitional Egyptian Government policy towards civil society. Regrettably, this was

                                                                                                           13

UNITED STATES AGENCY for INTERNATIONAL DEVELOPMENT / EGYPT
USAID                                                 IN-COUNTRY MAIL:
1A Nady El Etisalat Street                            P.O. Box 32, Maadi                      Tel: (202) 522 7000
off El-Laselki Street – New Maadi                     Cairo - Egypt                           Fax: (202) 516 4628
Cairo - Egypt                                         Postal Code: 11435                           (202) 516 4659
                                                                                      Appendix II


not to be the case. Although fully informed of the program, the authorities vigorously frustrated
the process.

During the time period of this audit, the transitional Egyptian Government applied a restrictive
NGO law and registration requirements for external non-governmental actors as tools to prevent
progress. Ultimately, they initiated criminal proceedings against several American and other
international NGOs. They raided the premises of those organizations and prevented many
programs from becoming operational.

Because significant and sufficient risk mitigation measures were in place, USAID has been able
to act proactively to recognize and to correct issues within USAID’s control as they arose.
Despite the aggressive push back from certain elements of the previous Government of Egypt,
and with the prospect that things may finally change with the advent of a post-transitional
Government, USAID has respected the wishes of its NGO partners and stood by them in looking
towards a better climate for more robust program implementation.

Based on mission review of the subject report, the following is the mission response for your
consideration.

Recommendation 1. We recommend that the USAID/Egypt’s Democracy and Governance
Office review and identify delayed projects in the Transition Support Grants Program and
send a written list to USAID/Egypt’s Procurement Office for action.

Recommendation 2. We recommend that USAID/Egypt’s Procurement Office, in coordination
with USAID/Egypt’s Democracy and Governance Office, make a written determination to
revise, suspend, or terminate transition grants.

Mission Response to Recommendations Nos. 1 and 2

USAID/Egypt concurs with RIG/Cairo’s Recommendation No. 1 and 2.

On May 14, 2012 building on ongoing day to day monitoring, the Mission formally reviewed the
Transition Support Program APS activities managed by the Office of Democracy and
Governance during which each grant was assessed to determine the adequacy of funding for
completion of program activities and anticipated costs, performance, etc. Like a Performance
Interim Review (PIR), this inter-office assessment, including resulting recommendations, has
been documented. USAID/Egypt also conducts formal PIRs twice a year, the purpose of which
is to review programs and spot issues such as those noted above. The last PIR occurred in June
2012 and documented the outcome of the review and resulting recommendations. The Office of
Democracy and Governance also conducts weekly APS grant reviews and reports any significant
new issues to the Program Office.

Given the above steps, final action has occurred, upon provision of a summary of the topics
covered, methodology used for the review of grants, a general summary of the outcome of the
May 14 meeting, the reporting document held by the program office, as well as the
recommendations resulting from the PIR review. (Refer to Attachment 1).


                                                                                                14
                                                                                        Appendix II



In view of the above, USAID/Egypt considers that a management decision and final action
have been achieved on Recommendations Nos. 1 and 2 and requests RIG/Cairo to close the
recommendation upon final report issuance.

Recommendation 3. We recommend that USAID/Egypt’s Office of Democracy and
Governance conduct and document an assessment of the International Republican Institute and
National Democratic Institute grants made under the Transition Support Grants Program to
determine whether the current funding is sufficient to complete program activities and cover
anticipated costs.

Mission Response to Recommendation No. 3

USAID/Egypt concurs with RIG/Cairo’s Recommendation Number 3.

The USAID/Egypt’s Office of Democracy and Governance will work with the International
Republican Institute and the National Democratic Institute to review their program activities,
costs and current funding under their grant agreements in light of their current pipelines and the
ongoing constraints in the operating environment. The target date for providing a management
decision is November 30, 2012.

In view of the above, USAID/Egypt considers that a management decision has been made on
Recommendation No. 3 and that final action will occur by November 30, 2012.

Recommendation 4. We recommend that USAID/Egypt’s Democracy and Governance Office
determine the validity of the reported results for democracy and governance activities under the
cooperative agreement and document its review.

Mission Response to Recommendation No. 4

USAID/Egypt concurs with RIG/Cairo’s Recommendation No. 4.

However, we note for clarification that the findings associated with Recommendation No. 4 refer
to and highlight the financial and organizational deficiencies of the grantee rather than any
presumed deficiencies of the Mission. USAID took appropriate pre-award precautionary
measures and, having observed specific weaknesses during grant oversight, took necessary,
appropriate and timely corrective measures. These steps were taken either before and/or
concurrent with the RIG/Cairo’s own audit work, rather than because of it.

Still it is a reasonable and valid assumption that the grantee’s organizational and financial
weaknesses could indicate similar deficiencies related to their reported results. It is for that
reason that USAID periodically conducts validity tests to ensure that reported results are
accurate. Despite the financial and accountability challenges encountered with this grantee, the
organization did in fact produce informative reporting of their observations of the parliamentary
elections. These reports proved highly useful and informative to the Egyptian people (i.e.
through public release of results), the international donor community and policy-makers in the


                                                                                                 15
                                                                                    Appendix II


U.S. Government. Although the grantee’s elections reporting generally tracked consistently with
those of other observer groups, the accuracy of this grantee’s reporting and the methodology
used to develop it should be assessed. USAID is prepared to conduct an internal verification of
results achieved under this cooperative agreement to determine their validity.

In view of the above, USAID/Egypt considers that a management decision has been made on
Recommendation No. 4 and that final action will occur by November 30, 2012.

Recommendation 5. We recommend that USAID/Egypt’s Financial Management Office
perform and document an independent financial review of the grantee’s expenditures, and
use supporting documentation to liquidate advances.

Mission Response to Recommendation No. 5

USAID/Egypt concurs with Recommendation No. 5.

Based on site visit reports by USAID’s pre-payment validation contractor indicating a lack of
good internal controls and supporting documents, the Agreement Officer Representative (AOR)
determined not to administratively approve liquidation vouchers (actual expenditures) submitted
by the awardee. After numerous requests for documentation properly supporting the liquidation
of submitted vouchers and for evidence of steps taken to strengthen the internal controls of the
recipient, USAID/Egypt received little substantive documentation. A review of the grantee’s
controls was also conducted by USAID/Egypt’s pre-payment validation contractor. The Office of
Financial Management (OFM) considered the minimal information provided or available and
determined that insufficient information was available to liquidate the vouchers. As such, OFM
issued a bill of collection (BOC) for the full amount of the outstanding advances on May 17,
2012.

In view of the above, USAID/Egypt considers that a management decision has been made.
Final action will occur by November 30, 2012 upon the grantee submitting a reimbursement
voucher with adequate supporting documentation or settlement of the BOC.

Recommendation 6. We recommend that USAID/Egypt’s Procurement Office determine the
allowability of $526,204 in unsupported questioned costs for expenses incurred by the grantee
and recover any amounts determined to be unallowable.

Mission Response to Recommendation No. 6

USAID/Egypt concurs with RIG/Cairo’s Recommendation No. 6.

As stated in the response to Recommendation No. 5, OFM issued a BOC for $526,204 on
May 17, 2012 for unliquidated advances. If the grantee subsequently indicates to the AOR
that they have their financial documentation in place to support a reimbursement voucher,
OFM will send staff to review the documentation and determine how much of the claimed
costs should be reimbursed.



                                                                                                16
                                                                                Appendix II


In view of the above, the Mission believes that a management decision has been made by
issuing the BOC requiring repayment of the outstanding advances. Final action will occur
by November 30, 2012 upon the grantee submitting a reimbursement voucher with
adequate supporting documentation or settlement of the BOC.




                                                                                           17
                                                                                                                                Appendix III

                                         Comparison of USAID Assistance Instruments*
                                                                                                                                  †
Topic                         Grants and Cooperative Agreements                               Fixed Obligation Grants (FOGs)
                                                                                              To financially support the recipient’s
                              To financially support the recipient’s accomplishment of a
Purpose                                                                                       accomplishment of a public purpose
                              public purpose authorized by federal statute
                                                                                              authorized by Federal statute
Relationship                  Recipient/grantee                                               Recipient/Grantee
USAID’s Role                  Donor/funding agency                                            Donor/funding agency
                                                                                              Implement assistance program with defined
Implementer’s Role            Implement assistance program
                                                                                              milestones
Legal and Policy Framework    22 CFR 226, ADS 303                                             22 CFR 226, ADS 303.3.25
                              Encouraged by policy, exceptions to competition in ADS          Encouraged by policy, exceptions to
Competition
                              303.3.6.5                                                       competition in ADS 303.3.6.5
                              The mission may conduct an audit, risk assessment, or
                              survey if the AO or activity manager is uncertain about the
                              prospective recipient's capacity to perform financially or
                              technically; the prospective recipient has never had a          The AO uses the FOG Entity Eligibility
Preaward Audits, Risk
                              USAID award or contract; the prospective recipient has not      Checklist to assess capacity and capabilities
Assessments, and Surveys
                              received an award from any other federal agency within the      for accomplishing the milestones.
                              past five years; the AO has knowledge of deficiencies in the
                              applicant's A-133 audit; or the AO determines it to be in the
                              best interest of the U.S. Government.
                                                                                              Not included. However, special provisions
                                                                                              on termination, records retention, and
Standard Provisions           Included                                                        certification at final payment must be
                                                                                              included, and other provisions may be
                                                                                              required, depending on the activity.
                                                                                              The amount for each year of the FOG must
                                                                                              not exceed $500,000, and the overall length
                                                                                              of time must not exceed 3 years. The FOG
General Restrictions on the   A grant or cooperative agreement may not exceed 5 years.
                                                                                              must not include any infrastructure or
Award                         Other restrictions may apply.
                                                                                              construction projects. The AO must
                                                                                              document the rationale for selecting this
                                                                                              mechanism. Other restrictions may apply.


                                                                                                                                            18
                                                                                                                             Appendix III

                                                                                                                              †
Topic                      Grants and Cooperative Agreements                               Fixed Obligation Grants (FOGs)
                                                                                           Not allowed. If the recipient must get
                                                                                           equipment or property other than real
                                                                                           property, then the milestone must authorize
                           Allowed. Source, origin, and nationality rules or appropriate
Property and Equipment                                                                     the recipient to get identified equipment and
                           waivers apply.
                                                                                           property, state that the property belongs to
                                                                                           the recipient, and include disposition
                                                                                           instructions.
                                                                                           The FOG allows performance without
                           Limited by regulation to selected essential aspects in
Administrative Authority                                                                   monitoring the actual costs incurred by the
                           cooperative agreement; AOR delegated by AO.
                                                                                           recipient; AOR delegated by AO.
                                                                                           Predetermined negotiated amount based on
                                                                                           a reasonable estimate of expected actual
Basis of Payment           Costs                                                           costs. Differences in costs and the
                                                                                           negotiated amount cannot be used to adjust
                                                                                           the fixed price.
                                                                                           Payments based on the AO/AOR/third-party
                                                                                           verifier’s independent verification and
                                                                                           documentation of achievement of milestone.
                                                                                           Funds can be advanced if an initial financing
                           Normally, funds can be advanced for allowable, reasonable,
Timing of Payment                                                                          milestone is not sufficient to meet
                           and allocable costs before they’re incurred.
                                                                                           implementation requirements, provided the
                                                                                           recipient has the capacity to manage
                                                                                           advances per ADS 636. Advances will be
                                                                                           liquidated based on completed milestones.
                                                                                           The AO may amend milestones or increase
                                                                                           milestone payments during the period of the
                                                                                           grant if the original milestones are no longer
                                                                                           feasible or appropriate because of
Changes After Award        Modifications
                                                                                           circumstances beyond the recipient’s control
                                                                                           and if the amended milestones are
                                                                                           compatible with and satisfy the grant’s
                                                                                           original purpose.




                                                                                                                                           19
                                                                                                                                     Appendix III

                                                                                                                                       †
    Topic                            Grants and Cooperative Agreements                             Fixed Obligation Grants (FOGs)
                                    The Agency’s substantial involvement in awards is limited to
                                    cooperative agreements. For all assistance awards, the         Monitoring is based on milestones and not
                                    AOR monitors the recipient's progress toward achieving the     incurred costs; therefore, the AO/AOR is
    Monitoring                      objectives of the program description in the subject award     encouraged to conduct site visits frequently
                                    and verifies that the recipient’s activities being funded by   to make sure the program is progressing and
                                    USAID under the referenced award conform to the terms          that milestones are being met.
                                    and conditions of that award.
                                                                                                   For recipient insolvency, material failure to
                                                                                                   comply with terms and conditions of the
                                    For cause, changed circumstances, or upon mutual
    Termination Rights                                                                             grant, or if continuation of the grant would not
                                    agreement.
                                                                                                   be in the national interest of the United
                                                                                                   States.
*
    Sources include ADS 303 and 310, and 22 CFR 226.
†
    Although USAID updated ADS on March 12, 2012, the criteria were applicable when USAID awarded the grants.




                                                                                                                                                 20
                                                                                                                                                      Appendix IV

                                                           Program Status as of November 2011 (Audited) 6
                                                                                                                                           Months
                                                                                                   Registration                            Delayed    March 2012
           Grantee                       Value of                                      Entity       Status in
                      Award Type                        Start Date     End Date                                          Status             as of    Status Update
           Number                       Project ($)                                    Type                *
                                                                                                     Egypt                                November    (Unaudited)
                                                                                                                                            2011
                                                                                                                                                     On track.
                                                                                                                                                     Minor delays
                                                                                    Egyptian
               1      FOG                  111,828       8/2/2011      8/1/2012                   Registered      On track                No delay   due to the
                                                                                    company
                                                                                                                                                     political
                                                                                                                                                     situation
                                                                                                                                                     On track. No
                                                                                    Egyptian
               2      FOG                  104,659       4/28/2011     4/27/2012                  Registered      On track                No delay   major
                                                                                    company
                                                                                                                                                     obstacles.
                                                                                                                  Not on track.
                                                                                                                                                     Not on track.
                                                                                                                  Grantee suspended
                                                                                                                                                     No MoSS
                                                                                                                  activities because it
                                                                                    Egyptian                                                         approval.
               3      FOG                  352,498       7/1/2011      6/30/2012                  Registered      had not yet received       5
                                                                                    NGO                                                              Major activities
                                                                                                                  MoSS approval to
                                                                                                                                                     have been
                                                                                                                  implement activities
                                                                                                                                                     suspended.
                                                                                                                  funded by USAID.
                                                                                                                  Not on track.
                                                                                                                                                     Not on track.
                                                                                                                  Grantee suspended
                                                                                                                                                     No MoSS
                                                                                                                  activities because it
                                                                                    Egyptian                                                         approval.
               4      FOG                  328,067       7/21/2011     7/31/2013                  Registered      had not yet received       4
                                                                                    NGO                                                              Major activities
                                                                                                                  MoSS approval to
                                                                                                                                                     have been
                                                                                                                  implement activities
                                                                                                                                                     suspended.
                                                                                                                  funded by USAID.
                                                                                                                  Not on track.
                                                                                                                                                     Not on track.
                                                                                                                  Grantee did not start
                                                                                                                                                     No MoSS
                                                                                                                  activities because it
                                                                                    Egyptian                                                         approval.
               5      Grant                607,641       5/20/2011     5/20/2014                  Registered      had not yet received       6
                                                                                    NGO                                                              Major activities
                                                                                                                  MoSS approval to
                                                                                                                                                     have not
                                                                                                                  implement activities
                                                                                                                                                     started.
                                                                                                                  funded by USAID.




6
    OIG collected the March 2012 status information through an email inquiry to each of the grantees


                                                                                                                                                                    21
                                                                                                                                  Appendix IV

                                                                                                                     Months
                                                                           Registration                              Delayed      March 2012
Grantee                  Value of                                 Entity    Status in
          Award Type                  Start Date   End Date                                        Status             as of      Status Update
Number                  Project ($)                               Type             *
                                                                             Egypt                                  November      (Unaudited)
                                                                                                                      2011
                                                                                                                                 On track. No
                                                                                                                                 major
                                                                                                                                 problems
  6       Grant         1,098,335     9/1/2011     8/31/2013    U.S. NGO   Pending          On track                No delay     except some
                                                                                                                                 local NGO
                                                                                                                                 partners have
                                                                                                                                 dropped out.
                                                                                                                                 On track.
                                                                           The U.S.                                              Minor
                                                                           company                                               obstacles
                                                                           established a                                         regarding
                                                                U.S.
  7       Grant         1,940,795     6/15/2011    6/14/2012               registered       On track                No delay     MoSS
                                                                company
                                                                           Egyptian-                                             approvals of
                                                                           based                                                 subgrantees.
                                                                           company.                                              Grantee used
                                                                                                                                 a work-around.
                                                                                                                                 On track. No
                                                                Egyptian
  8       FOG             199,656     9/19/2011    3/17/2013               Registered       On track                No delay     major
                                                                NGO
                                                                                                                                 obstacles.
                                                                                                                                 On track. No
                                                                Egyptian
  9       Grant           873,355     6/1/2011      6/3/2012               Registered       On track                No delay     major
                                                                company
                                                                                                                                 obstacles.
                                                                                                                                 On track. No
                                                                Egyptian
  10      Grant           776,925     7/27/2011    7/26/2012               Registered       On track                No delay     major
                                                                company
                                                                                                                                 obstacles.
                                                                                            Not verifiable.
                                                                                                                                 Not verifiable.
                                                                                            Grantee could not
          Cooperative                                           Egyptian                                                         Grantee
  11                      721,945     9/27/2011    6/26/2012               Registered       provide any             No support
          Agreement                                             NGO                                                              reporting not
                                                                                            evidence of program
                                                                                                                                 reliable.
                                                                                            activities completed.
                                                                                                                                 On track.
                                                                                                                                 Subpartners
                                                                           Update to
          Cooperative                                                                                                            are not being
  12                    8,657,886     4/1/2011     12/31/2011   U.S. NGO   registration     On track                No delay
          Agreement                                                                                                              paid because
                                                                           letter pending
                                                                                                                                 of MoSS
                                                                                                                                 instructions.




                                                                                                                                                 22
                                                                                                                             Appendix IV

                                                                                                                 Months
                                                                         Registration                            Delayed    March 2012
Grantee                 Value of                                Entity    Status in
          Award Type                 Start Date   End Date                                     Status             as of    Status Update
Number                 Project ($)                              Type             *
                                                                           Egypt                                November    (Unaudited)
                                                                                                                  2011
                                                                                                                           Not on track.
                                                                                                                           December
                                                                                                                           2011 raids and
  13      Grant        10,000,000    5/1/2011     4/30/2013   U.S. NGO   Pending        On track                No delay
                                                                                                                           subsequent
                                                                                                                           trial hindered
                                                                                                                           activities.
                                                                                                                           Not on track.
                                                                                        Not on track.                      The grantee
                                                                                        Grantee did not start              received
                                                                                        activities because it              approval from
  14      Grant         1,999,655    6/15/2011    6/14/2013   U.S. NGO   Registered     had not yet received       6       MoSS but not
                                                                                        MoSS approval to                   Ministry of
                                                                                        implement activities               Education. No
                                                                                        funded by USAID.                   major activities
                                                                                                                           have started
                                                                                                                           Not on track.
                                                                                                                           No MoSS
                                                              Egyptian                                                     approval.
  15      FOG              92,413    6/13/2011    6/12/2012              Registered     On track                No delay
                                                              NGO                                                          Activities were
                                                                                                                           suspended in
                                                                                                                           January 2012.
                                                                                                                           Not on track.
                                                                                                                           December
                                                                                                                           2011 raids and
  16      Grant        10,000,000    5/1/2011     4/30/2013   U.S. NGO   Pending        On track                No delay
                                                                                                                           subsequent
                                                                                                                           trial have hurt
                                                                                                                           activities.
                                                                                        Not on track.
                                                                                        Grantee did not start              Not on track.
                                                                                        activities because it              No MoSS
                                                              Egyptian
  17      FOG            732,581     4/28/2011    4/30/2014              Registered     had not yet received       7       approval, and
                                                              NGO
                                                                                        MoSS approval to                   activities have
                                                                                        implement activities               not started.
                                                                                        funded by USAID.
                                                                                                                           On track,
                                                              Egyptian                                                     despite
  18      Grant         1,328,390    6/20/2011    4/19/2012              Registered     On track                No delay
                                                              company                                                      political
                                                                                                                           situation.



                                                                                                                                         23
                                                                                                                             Appendix IV

                                                                                                                  Months
                                                                         Registration                             Delayed    March 2012
Grantee                 Value of                                Entity    Status in
          Award Type                 Start Date   End Date                                      Status             as of    Status Update
Number                 Project ($)                              Type             *
                                                                           Egypt                                 November    (Unaudited)
                                                                                                                   2011
                                                                                                                            On track. No
                                                              Egyptian
  19      FOG            409,446     7/1/2011     6/30/2012              Registered      On track                No delay   problems
                                                              company
                                                                                                                            reported.
                                                                                                                            Not on track.
                                                                                                                            Implementatio
                                                                                         Not on track.                      n started after
                                                                         Had not
                                                                                         Grantee did not start              internal start-
  20      Grant        3,267,643     7/1/2011     2/28/2013   U.S. NGO   applied as of                              5
                                                                                         activities because of              up delays, but
                                                                         March 2012
                                                                                         internal delays.                   registration
                                                                                                                            with MFA not
                                                                                                                            yet submitted.
                                                                                                                            Not on track.
                                                                                                                            Activities were
                                                                                                                            suspended in
                                                                                                                            January 2012
                                                                         Had not                                            because the
  21      Grant          775,011     8/1/2011     4/30/2012   U.S. NGO   applied as of   On track                No delay   grantee was
                                                                         March 2012                                         not registered;
                                                                                                                            application to
                                                                                                                            MFA for
                                                                                                                            registration not
                                                                                                                            yet submitted.
                                                                                                                            Not on track.
                                                                                         Not on track.
                                                                                                                            MoSS rejected
                                                                                         Grantee did not start
                                                                                                                            the approval in
                                                                                         activities because it
                                                              Egyptian                                                      February 2012
  22      FOG            184,199     10/2/2011    9/28/2012              Registered      had not yet received       2
                                                              NGO                                                           to implement
                                                                                         MoSS approval to
                                                                                                                            activities
                                                                                         implement activities
                                                                                                                            funded by
                                                                                         funded by USAID.
                                                                                                                            USAID.




                                                                                                                                          24
                                                                                                                                           Appendix IV

                                                                                                                               Months
                                                                                       Registration                            Delayed    March 2012
    Grantee                     Value of                                    Entity      Status in
              Award Type                       Start Date    End Date                                        Status             as of    Status Update
    Number                     Project ($)                                  Type               *
                                                                                         Egypt                                November    (Unaudited)
                                                                                                                                2011
                                                                                                                                         Not on track.
                                                                                                                                         Some activities
                                                                                                      Not on track.
                                                                                                                                         are being
                                                                                                      Grantee suspended
                                                                                                                                         conducted, but
                                                                                                      activities because it
                                                                         Egyptian                                                        no MoSS
      23      Grant               207,004       9/7/2011     9/6/2013                  Registered     had not yet received       3
                                                                         NGO                                                             approval yet.
                                                                                                      MoSS approval to
                                                                                                                                         Anticipates
                                                                                                      implement activities
                                                                                                                                         requesting a
                                                                                                      funded by USAID.
                                                                                                                                         no-cost
                                                                                                                                         extension.
                                                                                                                                         On track.
                                                                                                                                         Minor
                                                                         Egyptian                                                        programmatic
      24      FOG                 366,547      6/12/2011    6/11/2012                  Registered     On track                No delay
                                                                         company                                                         changes
                                                                                                                                         approved by
                                                                                                                                         USAID.
                                                                                                      15 on track                        11 on track
                                                                                                                                         12 not on
                               45,136,479                                                             8 not on track
              Total                                                                                                                      track
                                                                                                                                         1 not
                                                                                                      1 not verifiable
                                                                                                                                         verifiable
*
    Pending indicates that the organization applied for registration but had not received an explicit approval or notice of disapproval from MFA.




                                                                                                                                                      25
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           www.usaid.gov/oig
